C@OCKLE

2311 Douglas Street L | Bri f E-Mail Address:
€ rie
Omaha, Nebraska 68102-1214 ga Est. on contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 201334

BRADLEY BOARDMAN, et al.,
Petitioners,
ve
JAY INSLEE,
Governor of Washington, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did. on the 23rd day of April, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE MACKINAC CENTER FOR
PUBLIC POLICY IN SUPPORT OF PETITIONERS in the above entitled case. Alt parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
PATRICK J. WRIGHT
Counsel of Record
MACKINAC CENTER FOR PUBLIC POLICY
140 West Main Street
Midland, MI 48640
(989) 631-0900
wright@mackinac.org
Counsel for Amicus Curiae

Subscribed and sworn to before me this 23rd day of April, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL ROTARY-State of ebraska
A RENEE J. GOS Kens. 9. bhean l bee dea Ke Chk.

Notary Public Affiant 40901

Hy Comm. Exp. September 8, 2023

 
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com
Counsel for Petitioners

Peter B. Gonick

OFFICE OF THE WASHINGTON ATTORNEY GENERAL

P.O. Box 40100

1125 Washington St., SE

Olympia, WA 98504-0100

860-753-5528

peterg@atg.wa.gov

Counsel for Respondents Jay Inslee, Robert Hines, and Ross Hunter

Paul J. Lawrence

Gregory J. Wong

Claire McNamara

PACIFICA LAW GROUP

1191 Second Avenue, Suite 2000
Seattle, WA 98101

206-245-1700

paul. lawrence@pacificalawgroup.com
greg.wong@pacificalawgroup.com
claire.mcnamara@pacificalawgroup.com
Counsel for Respondent Campaign to Prevent Fraud and Protect Seniors
